HHS/OIG-Audit--"Follow-up Review of Radiology Services Paid by Empire BlueCross Blue Shield Under the Medicare Part B Program, (A-02-91-01025)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of Radiology Services Paid by Empire Blue Cross Blue Shield Under the Medicare Part B Program," (A-02-91-01025)
February 20, 1992
Complete
Text of Report is available in PDF format (288 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit looked at actions taken by the Health Care Financing Administration (HCFA) and the auditee, Empire Blue Cross
Blue Shield (Empire) to ensure the implementation of recommendations contained in our prior report. We found that Empire
had taken little action to recover $1.3 million of overpayments recommended for adjustments in the prior report. In addition,
HCFA had not initiated sufficient monitoring action to ensure that overpayments were recovered by Empire, nor to assure
that actions taken by Empire to preclude future overpayments were effective.